May 1, 2012

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Cardiovascular Global Surgery Fees Often Did Not Reflect the Number of
              Evaluation and Management Services Provided (A-05-09-00054)


The attached final report provides the results of our review of evaluation and management
services included in cardiovascular global surgery fees for calendar year 2007. The Centers for
Medicare & Medicaid Services requested this review.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-05-09-00054 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  CARDIOVASCULAR GLOBAL
SURGERY FEES OFTEN DID NOT
  REFLECT THE NUMBER OF
EVALUATION AND MANAGEMENT
    SERVICES PROVIDED



                       Daniel R. Levinson
                        Inspector General

                           May 2012
                         A-05-09-00054
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare program pays for physicians’ services furnished on or after January 1, 1992, based
on an established fee schedule that is updated annually. The fee schedule amounts are based on
the resources, such as physician time and intensity of the work (measured in relative value units
(RVU)), involved with furnishing services. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, must review the RVUs at least every 5 years
and adjust them as it deems necessary to account for such developments as medical practice or
coding changes, new data, or new procedures.

Included on the fee schedule are global surgery fees, which include payment for a surgical
service and the related preoperative and postoperative evaluation and management (E&M)
services provided during the global surgery period. The global period for major surgeries
includes the day before the surgery, the day of the surgery, and the 90 days after the day of the
surgery. In determining a global surgery fee, CMS estimates the number of E&M services that a
physician provides to a typical beneficiary during the global surgery period. CMS compensates
physicians for the surgical service and the related E&M services included in the fee regardless of
the E&M services actually provided during the global surgery period.

The American Medical Association Current Procedural Terminology (CPT) identifies codes that
physicians use to report medical services and procedures and claim reimbursement through the
physician fee schedule. The CPT includes 423 codes for major cardiovascular global surgeries.
CMS reimbursed physicians approximately $812 million for 403 of these CPT codes for
surgeries performed during calendar year (CY) 2007.

CMS requested this review.

OBJECTIVE

Our objective was to determine whether cardiovascular global surgery fees reflected the actual
number of E&M services that physicians provided to beneficiaries during the global surgery
periods.

SUMMARY OF RESULTS

Cardiovascular global surgery fees often did not reflect the actual number of E&M services that
physicians provided to beneficiaries during the global surgery periods. For 98 of the 300 global
surgeries that we sampled, either the fees reflected the actual number of E&M services provided
during the global surgery periods (19 surgeries) or the surgery was 1 of multiple surgeries (79
surgeries). For the remaining 202 global surgeries, the fees did not reflect the actual number of
E&M services provided. Specifically, physicians provided fewer E&M services than were
included in 132 global surgery fees and provided more E&M services than were included in 70
global surgery fees. (For the 79 sampled surgeries that were performed as 1 of multiple
surgeries, we were unable to determine whether the E&M services that physicians provided were



                                                i
related to the sampled surgeries or to 1 of the other surgeries performed on the same date of
service. Therefore, we did not categorize these 79 sampled surgeries as errors.)

Using our sample results, we estimated that Medicare paid a net $14.6 million for E&M services
that were included in cardiovascular global surgery fees but not provided during the global
surgery periods in CY 2007. The global surgery fees did not reflect the actual number of E&M
services provided to beneficiaries because CMS had not reviewed or recently reviewed the
RVUs for most of the CPT codes in our sample.

RECOMMENDATIONS

We recommend that CMS adjust the estimated number of E&M services within cardiovascular
global surgery fees to reflect the actual number of E&M services being provided to beneficiaries,
which would have reduced payments in CY 2007 alone by an estimated $14.6 million, or use the
results of this audit during the annual update of the physician fee schedule.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred, in part, with the recommendations but
planned to conduct further analysis before proposing any changes in the number of E&M
services assigned to cardiovascular surgeries.

CMS’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

CMS noted that the savings from any change in payments associated with our first
recommendation would be redistributed among other services under the physician fee schedule.
While this is true, implementing our recommendation would more closely align payment rates
with the cost of services provided.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Physician Fee Schedule.........................................................................................1
              Global Surgery Fees ..............................................................................................1
              Cardiovascular Global Surgeries ..........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

RESULTS OF AUDIT ................................................................................................................4

          FEDERAL REQUIREMENTS .........................................................................................4

          EVALUATION AND MANAGEMENT SERVICES INCLUDED IN
            CARDIOVASCULAR GLOBAL SURGERY FEES VERSUS SERVICES
            PROVIDED ................................................................................................................5

          RELATIVE VALUE UNITS NOT REVIEWED.............................................................5

          RECOMMENDATIONS ..................................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .....................6

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: CURRENT PROCEDURAL TERMINOLOGY CODES AND DATES OF
              REVIEWS FOR SAMPLED CARDIOVASCULAR SURGERIES EXAMINED

          D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                                 INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance coverage to people aged 65, people with disabilities, and people with end-stage
renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program.

Physician Fee Schedule

Medicare Part B pays for physicians’ services, including surgeries and evaluation and
management (E&M) services, 1 provided to beneficiaries. Section 1848 of the Act (42 U.S.C.
§ 1395w-4) requires Medicare to pay for physicians’ services furnished on or after January 1,
1992, based on an established fee schedule that CMS updates annually. 2 The fee schedule
considers three major categories of costs required to provide physicians’ services: physician
work, practice expense, and malpractice insurance. Sections 1848(b) and (c) of the Act require
that fee schedule amounts be based on the resources, such as physician time and intensity of the
work, needed to furnish services. For each of the three categories of costs, CMS determines a
relative value unit (RVU), which is a measure of the resources involved with furnishing a
service, and uses the three RVUs to calculate the fee schedule amount for each physician service.

Section 1848(c)(2)(B) of the Act requires CMS to review the RVUs at least every 5 years and to
adjust them as it deems necessary to account for such developments as medical practice or
coding changes, new data, or new procedures.

Global Surgery Fees

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 12,
section 40, contains the national global surgery policy establishing a single, consistent payment
across Medicare carrier jurisdictions nationwide for a surgery and related services when provided
by the physician who performs the surgery. A global surgery is a group of clinically related
services, including the surgical service and related preoperative and postoperative services, that
are treated as a single unit for coding, billing, and reimbursement.

CMS determines each global surgery fee based on the RVUs for a typical beneficiary receiving
the surgery and related E&M services during a global surgery period. The period for major
surgeries includes the day before the surgery, the day of the surgery, and the 90 days after the
day of the surgery. CMS estimates the number of E&M services that a typical beneficiary




1
 E&M services are nonsurgical services provided to diagnose and treat diseases or counsel and evaluate
beneficiaries.
2
    Payment for physicians’ services shall be the lesser of actual charges or the fee schedule amount.


                                                            1
receives during the global surgery period and includes reimbursement for that number of E&M
services in the global surgery fee.

Cardiovascular Global Surgeries

The American Medical Association Current Procedural Terminology (CPT) is a list of
descriptive terms and codes that physicians use to report medical services and procedures and
claim reimbursement through the physician fee schedule. The CPT includes 423 codes for major
cardiovascular global surgeries, such as coronary artery bypass grafting, insertion of a pulse
generator, and mitral valve replacement. CMS reimbursed physicians approximately
$812 million for 403 of these CPT codes for surgeries performed during calendar year (CY)
2007. 3

CMS requested this review.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether cardiovascular global surgery fees reflected the actual
number of E&M services that physicians provided to beneficiaries during the global surgery
periods.

Scope

Our review covered Medicare payments totaling approximately $590 million made to physicians
nationwide for 722,692 major cardiovascular global surgeries and related E&M services provided
during CY 2007. Our review included only those surgeries in which the number of E&M
services provided to the typical beneficiary was known and the payment included compensation
for E&M services related to the surgery. 4 We excluded Medicare payments totaling
approximately $222 million that did not meet those conditions.

We limited our review of internal controls to understanding CMS’s policies and procedures for
reimbursing physicians for global surgeries and establishing and updating global surgery fees.
We limited our review of RVUs to determining the number of E&M services included in
cardiovascular global surgery fees. We did not determine the medical necessity of the surgeries
or the related E&M services.




3
    There were no payments for the remaining 20 CPT codes in CY 2007.
4
 CMS could not provide us with the number of E&M services included in the global surgery fee for two global
surgery CPT codes; therefore, Medicare payments for these codes were excluded from our review. We also
excluded any Medicare payments for global surgeries that did not include payment for E&M services, such as
payments for assistant surgeons.


                                                        2
Our fieldwork included contacting the inpatient facilities and physician offices nationwide that
performed the global surgeries and provided the E&M services.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   discussed Medicare global surgery policy and procedures, including the establishment
       and update of global surgery fees, with CMS staff;

   •   identified a sampling frame of 722,692 major cardiovascular global surgeries totaling
       approximately $590 million and divided the sampling frame into 3 strata
       (Appendix A):

       o stratum 1 for the 5 CPT codes that represented 45.8 percent of the total payments in
         the sampling frame (code 33249 for electrode/insert pace-defibrillators, 33405 for
         aortic valve replacements, 33533 for coronary artery bypasses using single arterial
         grafts, 35301 for rechanneling of arteries, and 37620 for revisioning of major veins);

       o stratum 2 for the 170 CPT codes (excluding the 2 CPT codes in stratum 1) that
         included fewer than 7 E&M services in the global surgery fees; and

       o stratum 3 for the 213 CPT codes (excluding the 3 CPT codes in stratum 1) that
         included 7 or more E&M services in the global surgery fees;

   •   randomly selected 100 surgeries from each stratum for a total of 300 surgeries with
       payments totaling $286,452 for 79 CPT codes;

   •   obtained all paid claims related to the sampled surgeries and, for each surgery:

       o identified the name of the beneficiary, date of the surgery, applicable 92-day global
         surgery period, name of the physician who performed the surgery, and name of the
         facility where the surgery took place;

       o requested and received medical records from the performing physician and the
         facility where the surgery took place, identified the actual number of visits provided
         during the global surgery period, and counted each visit as an E&M service; and

       o determined the difference, if any, between the actual number of E&M services
         provided to the beneficiary and the number of E&M services included in the global
         surgery fee and determined the net dollar value of the difference;

       o used the sample results of 221 global surgeries examined for 65 CPT codes to
         estimate the Medicare reimbursement for E&M services that were included in


                                                3
             cardiovascular global surgery fees but not provided to beneficiaries during global
             surgery periods in CY 2007 (Appendix B); 5 and

    •   discussed the results of our review with CMS on September 14, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                           RESULTS OF AUDIT

Cardiovascular global surgery fees often did not reflect the actual number of E&M services that
physicians provided to beneficiaries during the global surgery periods. For 98 of the 300 global
surgeries that we sampled, either the fees reflected the actual number of E&M services provided
during the global surgery periods (19 surgeries) or the surgery was 1 of multiple surgeries
(79 surgeries). For the remaining 202 global surgeries, the fees did not reflect the actual number
of E&M services provided. Specifically, physicians provided fewer E&M services than were
included in 132 global surgery fees and provided more E&M services than were included in
70 global surgery fees.

Using our sample results, we estimated that Medicare paid a net $14.6 million for E&M services
that were included in cardiovascular global surgery fees but not provided during the global
surgery periods in CY 2007. The global surgery fees did not reflect the actual number of E&M
services provided to beneficiaries because CMS had not reviewed or recently reviewed the
RVUs for most of the CPT codes in our sample.

FEDERAL REQUIREMENTS

Chapter 12, section 40, of the Manual provides that the global surgery fee includes payment for
the surgical service and preoperative and postoperative E&M services provided during the global
surgery period. The global period for major surgeries includes the day before the surgery, the
day of the surgery, and the 90 days after the day of the surgery. CMS compensates physicians
for the surgical service and related E&M services included in the fee regardless of the E&M
services actually provided during the global surgery period.




5
 We found that 79 of the 300 global surgeries that we sampled were performed as 1 of multiple surgeries.
Chapter 12, section 40.6, of the Manual defines “multiple surgeries” as separate procedures performed by a
physician on the same patient on the same day for which separate payment may be allowed. We were unable to
determine whether the E&M services that physicians provided were related to the sampled surgeries or to one of the
other surgeries performed on the same date of service. When evaluating our sample, we did not categorize these
79 sampled surgeries as errors.


                                                        4
EVALUATION AND MANAGEMENT SERVICES INCLUDED IN
CARDIOVASCULAR GLOBAL SURGERY FEES VERSUS SERVICES PROVIDED

For 202 of the 221 cardiovascular global surgeries that we examined, the global surgery fees did
not reflect the actual number of E&M services provided during the global surgery periods. 6 As
shown in the following table, a total of 1,507 E&M services were included in the global surgery
fees for these 221 surgeries, but physicians provided 1,292 E&M services, a difference of 215
E&M services totaling a net $6,103.

    Evaluation and Management Services Included in Cardiovascular Global Surgery Fees
                               Versus Services Provided

                                                Number of
                                                   E&M
             Number          Number of            Services          Actual
             of E&M           Sampled           Included in       Number of
             Services          Global             Sampled            E&M                            Net Dollar
             Included        Surgeries           Surgeries’        Services                          Value of
Stratum       in Fees        Examined               Fees           Provided         Difference      Difference 7
   1          Varies 8           91                   695             475              220            $6,153
   2            <7               63                   182             225               (43)           (1,083)
   3            ≥7               67                   630             592                38             1,033
 Total                          221                 1,507           1,292              215            $6,103

Using our sample results, we estimated that Medicare paid a net $14.6 million for E&M services
that were included in cardiovascular global surgery fees but not provided during the global
surgery periods in CY 2007 (Appendix B).

RELATIVE VALUE UNITS NOT REVIEWED

Cardiovascular global surgery fees did not reflect the actual number of E&M services provided
to beneficiaries because CMS had not reviewed or recently reviewed the RVUs for most of the
65 cardiovascular global surgery CPT codes that we examined. Specifically, CMS:




6
 Because the remaining 79 surgeries sampled were performed as 1 of multiple surgeries, we were unable to
determine whether the E&M services physicians provided were related to the sampled surgeries or to 1 of the other
surgeries performed on the same date of service. Therefore, we did not include them in this analysis and table.
7
 To calculate the net dollar value of the difference, we used 80 percent of the lowest fee schedule amount for an
E&M service included in the global surgery fee. The 80 percent represented the Federal share for the E&M service,
and the remaining 20 percent represented beneficiary coinsurance.
8
 CPT code 33249 has 3 E&M services included in the global fee; CPT code 35301 has 6 E&M services included;
CPT code 33533 has 9 E&M services included; CPT code 33405 has 10 E&M services included; and CPT
code 37620 has 11 E&M services included.


                                                        5
   •   had not reviewed the RVUs for 4 codes since the fee schedule was established in 1992,

   •   last reviewed the RVUs for 7 codes between 1993 through 1999,

   •   last reviewed the RVUs for 36 codes between 2000 through 2007,

   •   last reviewed the RVUs for 5 codes after 2007 (the year the sampled surgeries occurred),
       and

   •   had not reviewed the RVUs for 13 codes established after the 1992 fee schedule.

Appendix C contains details on these reviews.

RECOMMENDATIONS

We recommend that CMS adjust the estimated number of E&M services within cardiovascular
global surgery fees to reflect the actual number of E&M services being provided to beneficiaries,
which would have reduced payments in CY 2007 alone by an estimated $14.6 million, or use the
results of this audit during the annual update of the physician fee schedule.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred, in part, with the recommendations but
planned to conduct further analysis before proposing any changes in the number of E&M
services assigned to cardiovascular surgeries. CMS will assess whether these services should be
reviewed under the potentially misvalued codes initiative.

CMS’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

CMS noted that the savings from any change in payments associated with our first
recommendation would be redistributed among other services under the physician fee schedule.
While this is true, implementing our recommendation would more closely align payment rates
with the cost of services provided.




                                                6
APPENDIXES
                                                                                              Page 1 of 2


                 APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of paid Medicare major cardiovascular global surgeries with dates of
service in calendar year 2007.

SAMPLING FRAME

The sampling frame consisted of 722,692 major cardiovascular global surgeries with Medicare
payments totaling $590,288,685. We excluded surgeries and their payments in which the
number of evaluation and management (E&M) services provided to the typical beneficiary was
unknown and excluded payments that did not include compensation for E&M services related to
the surgery, such as payments for assistant surgeons.

SAMPLE UNIT

The sample unit was a major cardiovascular global surgery.

SAMPLE DESIGN

We used a stratified random sample.

                                  Description of Stratified Sample

    Stratum                    Description                    No. of Surgeries          Payments
                  Surgeries with the highest total
                  payments for five specific CPT
         1        codes 1                                        276,229                $270,219,767
                  Surgeries (excluding those in
                  stratum 1) with fewer than seven
         2        E&M services included in the fee               331,927                 165,502,559
                  Surgeries (excluding those in
                  stratum 1) with seven or more E&M
        3         services included in the fee                   114,536                 154,566,359
        Total                                                    722,692                $590,288,685




1 CPT = Current Procedural Terminology. CPT code 33249 has 3 E&M services included in the global fee; CPT

code 35301 has 6 E&M services included; CPT code 33533 has 9 E&M services included; CPT code 33405 has 10
E&M services included; and CPT code 37620 has 11 E&M services included.
                                                                                      Page 2 of 2


SAMPLE SIZE

We selected a sample of 100 major cardiovascular global surgeries from each stratum, resulting
in a total sample of 300 surgeries.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate 100 random numbers for each stratum.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating 100 random
numbers for each stratum, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OAS statistical software to estimate the total dollar amount of E&M services included
in global surgery fees but not provided during the global surgery periods.
                      APPENDIX B: SAMPLE RESULTS AND ESTIMATES

Sample Results: Evaluation and Management Services Included in Cardiovascular Global
                        Surgery Fees Versus Services Provided
                                                                                                               Net
                                         Number of       Number of       Number of                           Dollar
                                         Surgeries       Surgeries       Surgeries        Number of         Value of
              Number                        With            With            With          Surgeries        Difference
              of E&M        Number         Equal           Fewer           More           Performed            in
              Services         of          E&M             E&M             E&M            as One of         Number
              Included      Sampled       Services        Services        Services         Multiple         of E&M
Stratum        in Fees      Surgeries     Provided        Provided        Provided        Surgeries        Services 1


     1         Varies 2        100             6               69             16                 9           $6,153
     2          <7             100             6               24             33                37            -1,083
     3          ≥7             100             7               39             21                33             1,033
    Total                      300            19              132             70                79           $6,103




            Estimated Dollar Value of Evaluation and Management Services Included in
                      Cardiovascular Global Surgery Fees but Not Provided
                                                          Limits Calculated for a 90-Percent
                                          Point
                      Stratum                                    Confidence Interval
                                         Estimate
                                                           Lower Limit        Upper Limit
                           1            $16,997,420            $9,223,486          $ 24,771,355
                           2             -3,596,363            -7,122,631               -70,095
                           3              1,182,619            -1,158,869             3,524,106
                          Overall       $14,583,676           $5,814,886 3          $23,352,4653




1
 To calculate the net dollar value of the difference, we used 80 percent of the lowest fee schedule amount for an
E&M service included in the global surgery fee. The 80 percent represented the Federal share for the E&M service,
and the remaining 20 percent represented beneficiary coinsurance.
2
 CPT code 33249 has 3 E&M services included in the global fee; CPT code 35301 has 6 E&M services included;
CPT code 33533 has 9 E&M services included; CPT code 33405 has 10 E&M services included; and CPT
code 37620 has 11 E&M services included.
3
  The sum of the lower limits for the three strata is not mathematically equal to the overall lower limit. The same is
true for the upper limits.
                                                                                    Page 1 of 3


APPENDIX C: CURRENT PROCEDURAL TERMINOLOGY CODES AND DATES OF
    REVIEWS FOR SAMPLED CARDIOVASCULAR SURGERIES EXAMINED

The 221 cardiovascular global surgeries examined had 65 CPT codes. The following tables
identify the 65 CPT codes by stratum and indicate the year in which the Centers for Medicare
& Medicaid Services (CMS) last reviewed the relative value units for each code since
establishing the fee schedule in 1992.

                                                   Stratum 1
          CPT Code                     Description                Last CMS Review
         37620             Revision of major vein                   Not reviewed
         35301             Rechanneling of artery                       1997
         33249             Electrode/insert pace-defibrillator          2000
         33405             Replacement of aortic valve                  2007
         33533             CABG 1 arterial, single                      2007

                                                   Stratum 2
          CPT Code                              Description                 Last CMS Review
         33207            Insertion of heart pacemaker                        Not reviewed
         33213            Insertion of pulse generator                        Not reviewed2
         35903            Excision, graft, extremity                          Not reviewed2
         37607            Ligation of arteriovenous fistula                   Not reviewed 2
         36833            Arteriovenous fistula revision                      Not reviewed 3
         33282            Implant patient-activated heart recorder            Not reviewed4
         33284            Remove patient-activated heart recorder             Not reviewed4
         36819            Arteriovenous fuse, upper arm, basilic              Not reviewed 4
                          Endovascular abdominal aortic aneurysm repair
         34802            using modular bifurcated prosthesis                 Not reviewed 5
         36870            Percutaneous thrombectomy arteriovenous fistula     Not reviewed5
         36818            Arteriovenous fuse, upper arm, cephalic             Not reviewed6




1
    Coronary artery bypass graft.
2
    CPT codes 33213, 35903, and 37607 were established in 1994.
3
    CPT code 36833 was established in 1999.
4
    CPT codes 33282, 33284, and 36819 were established in 2000.
5
    CPT codes 34802 and 36870 were established in 2001.
                                                                                          Page 2 of 3


                         Transcatheter stent, cervical carotid artery with distal
        37215            embolic protection                                         Not reviewed 6
        37722            Ligate/strip long leg vein                                 Not reviewed 7
        33212            Insertion of pulse generator                                   1994
        33222            Revise pocket, pacemaker                                       1994
        36830            Artery-vein nonautograft                                       1997
        36831            Open thrombect arteriovenous fistula                           2001
        36832            Arteriovenous fistula revision, open                           2001
        35226            Repair blood vessel lesion                                     2002
        34825            Endovascular extend prosthesis, initial                        2003
        36821            Arteriovenous fusion direct any site                           2009
        36825            Artery-vein autograft                                          2010
        37765            Phlebectomy veins—extremity—to 20                              2011
        37766            Phlebectomy veins—extremity—20+                                2011


                                                  Stratum 3

        CPT Code                     Description                      Last CMS Review
        33025           Incision of heart sac                           Not reviewed
        33030           Partial removal of heart sac                    Not reviewed
        33496           Repair prosthetic valve clot                    Not reviewed 8
        33971           Aortic circulation assist                           1997
        35656           Artery bypass graft                                 1997
        36834           Repair arteriovenous aneurysm                       1998
        35082           Repair artery rupture, aorta                        2002
        35112           Repair artery rupture, spleen                       2002
        35151           Repair defect of artery                             2002
        35276           Repair blood vessel lesion                          2002
        35571           Artery bypass graft                                 2002
        35621           Artery bypass graft                                 2002
        35631           Artery bypass graft                                 2002
        35661           Artery bypass graft                                 2002
        35665           Artery bypass graft                                 2002
        35666           Artery bypass graft                                 2002
        35860           Explore limb vessels                                2002




6
    CPT codes 36818 and 37215 were established in 2005.
7
    CPT code 37722 was established in 2006.
8
    CPT code 33496 was established in 1998.
                                                           Page 3 of 3


CPT Code                Description      Last CMS Review
33406      Replacement of aortic valve         2007
33410      Replacement of aortic valve         2007
33426      Repair of mitral valve              2007
33427      Repair of mitral valve              2007
33430      Replacement of mitral valve         2007
33510      CABG, vein, single                  2007
33511      CABG, vein, two                     2007
33512      CABG, vein, three                   2007
33513      CABG, vein, four                    2007
33534      CABG, arterial, two                 2007
33535      CABG, arterial, three               2007
34201      Removal of artery clot              2007
35081      Repair defect of artery             2007
35102      Repair defect of artery             2007
35556      Artery bypass graft                 2007
35566      Artery bypass graft                 2007
35583      Vein bypass graft                   2007
35585      Vein bypass graft                   2007
33411      Replacement of aortic valve         2011
                                                        Page 1 of 2
APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
Page 2 of 2
